<html>
<title> - DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION
                                ________

   SUBCOMMITTEE ON THE DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND 
         URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS

                 JOHN W. OLVER, Massachusetts, Chairman

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                    Kate Hallahan, David Napoliello,
            Laura Hogshead, Lisa Pena, and Alexander Gillen,
                           Subcommittee Staff

                                ________

                                 PART 5
                                                                   Page
Federal Railroad Administration and National Railroad Passenger 
 Corporation [AMTRAK]..............................................  1
Saint Lawrence Seaway Development Corporation....................  541
Research and Innovative Technology Administration................  569
Federal Maritime Commission......................................  575
National Transportation Safety Board.............................  623
Outside Witnesses................................................  651

                                ________

         Printed for the use of the Committee on Appropriations




 PART 5--TRANSPORATION, AND HOUSING AND URBAN DEVELOPMENT, AND RELATED 
                           AGENCIES FOR 2009

















 DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2009
_______________________________________________________________________



                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND 
         URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS

                 JOHN W. OLVER, Massachusetts, Chairman

ED PASTOR, Arizona                     JOE KNOLLENBERG, Michigan
CIRO RODRIGUEZ, Texas                  FRANK R. WOLF, Virginia
MARCY KAPTUR, Ohio                     ROBERT B. ADERHOLT, Alabama
DAVID E. PRICE, North Carolina         JAMES T. WALSH, New York
ROBERT E. ``BUD'' CRAMER, Jr., Alabama VIRGIL H. GOODE, Jr., Virginia
LUCILLE ROYBAL-ALLARD, California      
MARION BERRY, Arkansas             


 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                    Kate Hallahan, David Napoliello,
            Laura Hogshead, Lisa Pena, and Alexander Gillen,
                           Subcommittee Staff

                                ________

                                 PART 5
                                                                   Page
 Federal Railroad Administration and National Railroad Passenger 
Corporation [AMTRAK]..............................................    1
 Saint Lawrence Seaway Development Corporation....................  541
 Research and Innovative Technology Administration................  569
 Federal Maritime Commission......................................  575
 National Transportation Safety Board.............................  623
 Outside Witnesses................................................  651

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 43-800                     WASHINGTON : 2008
















                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

JOHN P. MURTHA, Pennsylvania            JERRY LEWIS, California
NORMAN D. DICKS, Washington             C. W. BILL YOUNG, Florida
ALAN B. MOLLOHAN, West Virginia         RALPH REGULA, Ohio
MARCY KAPTUR, Ohio                      HAROLD ROGERS, Kentucky
PETER J. VISCLOSKY, Indiana             FRANK R. WOLF, Virginia 
NITA M. LOWEY, New York                 JAMES T. WALSH, New York 
JOSE E. SERRANO, New York               DAVID L. HOBSON, Ohio 
ROSA L. DeLAURO, Connecticut            JOE KNOLLENBERG, Michigan 
JAMES P. MORAN, Virginia                JACK KINGSTON, Georgia 
JOHN W. OLVER, Massachusetts            RODNEY P. FRELINGHUYSEN, New Jersey 
ED PASTOR, Arizona                      TODD TIAHRT, Kansas 
DAVID E. PRICE, North Carolina          ZACH WAMP, Tennessee 
CHET EDWARDS, Texas                     TOM LATHAM, Iowa
ROBERT E. ``BUD'' CRAMER, Jr., Alabama  ROBERT B. ADERHOLT, Alabama 
PATRICK J. KENNEDY, Rhode Island        JO ANN EMERSON, Missouri
MAURICE D. HINCHEY, New York            KAY GRANGER, Texas 
LUCILLE ROYBAL-ALLARD, California       JOHN E. PETERSON, Pennsylvania 
SAM FARR, California                    VIRGIL H. GOODE, Jr., Virginia 
JESSE L. JACKSON, Jr., Illinois         RAY LaHOOD, Illinois 
CAROLYN C. KILPATRICK, Michigan         DAVE WELDON, Florida 
ALLEN BOYD, Florida                     MICHAEL K. SIMPSON, Idaho 
CHAKA FATTAH, Pennsylvania              JOHN ABNEY CULBERSON, Texas 
STEVEN R. ROTHMAN, New Jersey           MARK STEVEN KIRK, Illinois 
SANFORD D. BISHOP, Jr., Georgia         ANDER CRENSHAW, Florida 
MARION BERRY, Arkansas                  DENNIS R. REHBERG, Montana 
BARBARA LEE, California                 JOHN R. CARTER, Texas 
TOM UDALL, New Mexico                   RODNEY ALEXANDER, Louisiana 
ADAM SCHIFF, California                 KEN CALVERT, California 
MICHAEL HONDA, California               JO BONNER, Alabama 
BETTY McCOLLUM, Minnesota
STEVE ISRAEL, New York
TIM RYAN, Ohio
C.A. ``DUTCH'' RUPPERSBERGER, Maryland
BEN CHANDLER, Kentucky
DEBBIE WASSERMAN SCHULTZ, Florida
CIRO RODRIGUEZ, Texas              

                  Rob Nabors, Clerk and Staff Director

                                  (ii)








 
 DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2009

                              ----------                              

                                        Tuesday, February 26, 2008.

    FEDERAL RAILROAD ADMINISTRATION AND NATIONAL RAILROAD PASSENGER 
                          CORPORATION [AMTRAK]

                               WITNESSES

HON. JOSEPH BOARDMAN, FRA ADMINISTRATOR
ALEXANDER KUMMANT, PRESIDENT AND CEO OF AMTRAK
    Mr. Olver. The committee will come to order. Let me make a 
quick comment. There are a lot of other hearings going on. 
There are duplicate hearings, three and four of them going on 
at the same time and quite often there are members, who are 
involved with those. And so, I do not think that the number of 
people here represents any disinterest, but only a question of 
where responsibilities lie. So, anyway, with that said, let me 
welcome Administrator Joe Boardman and President and CEO of 
Amtrak, Alexander Kummant, to today's hearing on the intercity 
passenger rail and the FRA's fiscal year 2009 budget request. 
    A number of things have occurred since the last time you 
have both appeared before the subcommittee. Amtrak's ridership 
has reached almost 26 million passengers. I think I should say 
25.8, in order to be one more significant figure of accuracy 
here, in fiscal year 2007, up nearly 10 percent from 2006. It 
represents the fifth straight year that Amtrak has set record 
after record of ridership.
    At the same time, Amtrak continues to make progress in 
reducing capital backlog. The needs of the intercity passenger 
rail system remain great. Last year in testimony before the 
Senate, the Appropriations Committee, the Inspector General 
pegged Amtrak's capital backlog at about $5 billion dollars. 
Second, the Presidential Emergency Board, which was solely 
appointed by President Bush, made a series of recommendations, 
in an effort to resolve an eight-year long negotiation impasse 
between Amtrak management and its labor workforce. I am pleased 
that an agreement was signed between the two parties nearly a 
month ago and I am hopeful that the agreement sees final 
ratification in weeks ahead.
    Finally, the passenger rail working group, a subset of the 
National Surface Transportation and Revenue Study Commission, 
issued a report recently that showed over seven billion dollars 
would be needed each year between 2007 and 2015--well, 2007 has 
now passed, so let us just say from 2008 to 2015, which would 
be eight years, would come to $56 billion, if my grade school 
math is still correct, to maintain the existing Amtrak system, 
number one, to continue the development of planned new 
corridors, two, and to create new routes to link major urban 
areas.
    These three events, record ridership, a large capital 
backlog, the PEB labor settlement recommendations, and the work 
of the passenger rail working group should have had some 
influence on the President's fiscal year 2009 budget for 
Amtrak. Instead, we received what is virtually a carbon copy of 
the budget for intercity rail that was submitted last year. 
Once again, the President's budget request fails to address 
short- and long-term capital and operating needs of the system 
and also does not appear to acknowledge any recommendations of 
the President's own Emergency Board. The President's budget 
request would provide a total $800 million for Amtrak, which 
consists of $275 million for operating and $525 million for 
capital, plus an additional $100 million for an intercity 
passenger rail grant program. Even with the operational savings 
that Amtrak has achieved recently, over $60 million in 2006 and 
another $53 million in 2007, the $275 million requested in the 
President's budget for operating will force Amtrak to severely 
curtail service or shutdown, in my view. The President's 
capital budget request of $525 million is also inadequate and 
will do little to bring the system into a state of good repair.
    In contrast, Amtrak's budget request of--of $1.785 billion 
is more than double the request of the President and $460 
million more than what the Congress provided in fiscal year 
2008. While I am confident the President's request is wholly 
inadequate to maintain a national intercity passenger rail 
system, I must also point out, it will be extremely difficult 
to come up with all of the resources that Amtrak believes it 
will require from the federal government. Unfortunately, the 
President left us a number of holes to fill, not only in 
passenger rail, but also with regard to funding for our 
airports, highway infrastructure, transit systems, and for a 
significant number of housing programs that serve our nation's 
most vulnerable populations.
    I look forward to your testimony and our discussion this 
morning and I am hopeful that the funding priorities of the 
next administration will allow intercity passenger rail to be a 
viable part of a balanced transportation system. At this time, 
I would like to recognize my ranking member, Mr. Knollenberg, 
for any comments that he would like to make.
    Mr. Knollenberg. Thank you, Mr. Chairman. Which of these is 
better focused, this one or that one? You cannot tell.
    I am going to welcome certainly to both of you, 
Administrator Boardman and Mr. Kummant, who is the president of 
Amtrak. I have, for a number of years now, had the opportunity 
to review and help sort through all of the conflicting evidence 
about intercity rail transportation and, as yet, have not seen 
a clear pathway forward. In many ways, it just seems as if the 
Department of Transportation and Amtrak exist in two different 
worlds. I will explain a little later. And we, in Congress, 
complicate this issue with an ongoing, overreaching, 
overarching philosophical debate about the need for a highly 
subsidized national rail system, as if that alone would be 
justification enough for the taxpayer to provide whatever 
increases are over what cannot be supported by revenue. And I 
often wondered if these different views of the world will ever 
find a common answer.
    For example, for 2009, the FRA is requesting $900 million 
for the National Railroad Passenger Corporation, including no 
funds for operating expenses. Here is FRA's expectation and I 
think it sums up their view of the world very well, and I am 
quoting from the budget justification. ``This amount would 
enable Amtrak's new management team to keep the trains running 
and act on its mandate to reshape the company.''
    Now, when you look at Amtrak's own proposal, which includes 
$525 million of operating expenses and a total of over $1.7 
billion for 2009, it does not appear that the new management 
team has yet heard or read about this mandate to reshape the 
company or at least if it has, it does not consider $900 
million from the Federal Government as a likely outcome for 
2009 or any other year. In fact, I quote again from Amtrak's 
request, ``Finally, and perhaps most importantly, we will have 
to begin the process of procuring a modern fleet, one that 
would allow us to support the full range of current operational 
needs and the needs of the year 2020.''
    I hope the witnesses today can show that I am wrong, but I 
do not get a sense that we have these--that these views are 
consistent. Rather, it seems that we are falling into a rut, by 
which I mean the DOT may now be using the mandate for change 
simply as a way of meeting its overall budget target and Amtrak 
is not taking seriously the need to change its corporate 
structure, target its product, streamline its workforce, and 
compete successfully in a rapidly changing transportation 
environment, as any corporation with a product to sell should, 
in my opinion. When either side takes the charge seriously, the 
result is that the Subcommittee is stuck with a large funding 
gap to fill every year and with dwindling resources available 
to fill it. In the end, we are forced to short or reduce many 
other worthy programs that are in great need to keep the status 
quo for Amtrak. I find this to be discouraging and unfortunate.
    Mr. Chairman, I will have some questions for the two 
witnesses about the specifics of their requests and the pathway 
forward, but appreciate the opportunity to highlight what I 
think is becoming a serious budget issue for the Committee, as 
a difference between the two approaches to funding Amtrak grow 
greater and greater. And with that, I will suspend my comments 
and I yield back the balance of time. I look forward to your 
testimony. Thank you.
    Mr. Olver. I think in very similar ways, I and my ranking 
member are looking at the same problem. In any case, now the 
Subcommittee will hear from the panelists. Mr. Boardman, let us 
begin with you, and then we will move on to Mr. Kummant. Your 
complete witness statements will be included in the record. And 
you do not have to be constrained to five minutes. We have a 
little time here, but if you stay somewhere within roughly what 
each of us have bothered to say to you, please. Go ahead, Mr. 
Boardman. Thank you.
    Mr. Boardman. Thank you, Mr. Chairman, Ranking Member 
Knollenberg. My prepared comments today are not going to be 
responsive to some of the issues that you have raised and I 
will go to those during the questions and answers, if you give 
me that liberty.
    I appreciate the opportunity to appear before you today on 
behalf of Secretary of Transportation, Mary Peters, and the 
Bush Administration, to discuss the President's budget proposal 
for fiscal year 2009, as it relates to the Federal Railroad 
Administration and Amtrak. This budget request continues to 
support the Administration's commitment to ensuring that the 
Nation's rail transportation system is safe, secure, and 
efficient. The requested $1.1 billion will sustain and advance 
FRA's mission to improve railroad safety, while providing 
valuable resources to ensure continuation of intercity 
passenger rail operations.
    As you are aware, safety remains FRA's single most mission 
essential activity and strategic performance objective. The 
2009 request includes $185 million in funds to directly support 
the agency's core safety assurance oversight and enforcement 
activities, to achieve our goals of preventing and reducing 
railroad accidents and incidents and contributing to the 
avoidance of serious hazardous material incidents in rail 
transportation.
    Included within FRA's safety budget is $1.2 million to 
expand the implementation of the Close Call Confidential 
Reporting Pilot, also known as the C3RP program. This 
initiative allows FRA to more effectively leverage its 
resources by expanding its partnership with industry to promote 
risk-reduction programs on the Nation's railroads.
    With regards to FRA's rail research and development 
activities, the 2009 request includes $34 million to support 
our railroad safety efforts. Of note are new initiatives that 
fund research in the area of level boarding to support further 
access and compliance with the Americans With Disabilities Act, 
the development of a new joint bar inspection technology, and 
procurement of a high-speed ultrasonic rail flaw detection 
system. By far, the largest portion of FRA's 2009 budget 
request provides $900 million in financial assistance for 
intercity passenger rail services, as you both already noted. 
This includes $800 million in direct subsidies to Amtrak and 
$100 million to expand the current $30 million Intercity 
Passenger Rail Grant Program that was appropriated for the 
first time last year.
    In total, this funding level will support continued 
intercity passenger rail service, while Amtrak's management 
team continues to make progress in reshaping the company. This 
funding level encourages Amtrak to continue to undertake 
meaningful reforms and control spending.
    The Administration remains steadfast in its desire to 
improve the manner by which intercity passenger rail services 
are provided. This necessity also includes improvements on how 
Amtrak provides such services and laying the groundwork for 
states to have a stronger role in determining the important 
characteristics or services that they support financially and 
for the participation of other entities in provision of 
intercity passenger rail service under contract to states and/
or Amtrak.
    The request includes $525 million in direct federal 
subsidies for Amtrak capital costs. This amount allows Amtrak 
and its state partners to continue to address the most pressing 
investment needs on the northeast quarter infrastructure, as 
well as the essential equipment investment. In addition, the 
budget includes the aforementioned, the hundred million, to 
expand the new Intercity Passenger Rail Grant Program, which 
awards competitive grants to States to finance the cost of 
state driven capital improvements, priorities associated with 
intercity passenger rail services. This program encourages 
state involvement in planning and decision-making for intercity 
passenger rail service, allowing them to identify where 
mobility needs justify public investment. Additionally, State 
involvement in planning and decision-making helps prioritize 
infrastructure improvements, such as stations, and lets the 
states assure connectivity to other forms of transportation 
supporting intermodalism within the state.
    State involvement in funding intercity passenger rail 
service also provides an added discipline on Amtrak to 
continually seek ways to provide the highest quality of 
service. The notification of funds availability for this 
program was published in the Federal Register just a week or 
two ago.
    The Administration's request also includes $275 million for 
operating expenses that are to be made available to Amtrak, as 
they demonstrate and achieve efficiencies. Under this account, 
the 2009 request proposes establishing a new competitive pilot 
program that will allow the Secretary to test viability of 
using non-Amtrak operators on selected routes to provide 
passenger rail services.
    Finally, I would like to offer a brief update on the Rail 
Line Relocation and Improvement Program. As you know, just over 
$20 million was appropriated for this program for 2008. FRA is 
taking aggressive steps to implement the program and has 
developed regulations governing its implementation. These 
regulations are currently being cleared with the 
Administration. We expect to issue them this spring with the 
first grant awards under the program beginning in 2009.
    I appreciate your attention. I will be happy to answer 
questions.
    [The information follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Mr. Kummant.
    Mr. Kummant. Good morning, Mr. Chairman, and thank you for 
the opportunity to testify today. As you may know and have 
already mentioned actually, fiscal year 2007 finished as a 
strong year for Amtrak and fiscal year 2008 has gotten off to a 
good start, as well. You mentioned the annual ridership record 
of 25.8 million passengers that we set last year, which was the 
largest in company history. We have had a record several 
months, and a record Thanksgiving, which are also important 
indicators of the traveling public's preferences and 
confidence. We have seen double-digit growth on many of our 
routes and our new corridor operations in the Chicago area have 
grown rapidly. Finally, as you all have been very involved with 
and are aware of, we have concluded agreements with most of our 
unions after years of negotiation. While the organizations are 
currently going through the ratification process, we hope our 
employees will find the terms of the agreements to be good and 
acceptable. We are following the recommendations of the 
Presidential Emergency Board in providing wage increases and 
retroactive pay to our employees and our employees will also be 
making contributions to healthcare.
    More and more, it looks like passenger rail service has a 
bright future. To help shape the next few years, Amtrak is 
focusing its efforts on a set of key priorities. We are working 
to increase revenue generation on all of our operations, reduce 
our costs, and improve both trip times and system-wide on-time 
performance. We are also in the process of developing a 
comprehensive plan for equipment procurement in the coming 
years. The acquisition of additional equipment is a small 
component of the fiscal year 2009 capital request, but we 
expect it to grow as our fleet of electric engines and our 
Amfleet cars approach the end of useful lives.
    We are also working with a number of states to grow our 
short distance corridor operations, increase state involvement, 
and develop new corridor operations in markets where the demand 
clearly exists. We are, however, quickly bumping up against the 
limits of our existing equipment capacity at a time when states 
are seeking new services, which underscores the need for new 
rolling stock.
    To realize these priorities, Amtrak will continue to 
require a certain core level of operating assistance and 
capital investment from the federal government. In fiscal year 
2009, Amtrak will need a total of $1.671 billion in federal 
assistance. Of this total, $506 million will be required to 
meet operating costs, $801 million will be invested in capital 
projects, and $19 million will be required for the funding of 
Amtrak's Office of Inspector General, and $345 million will be 
spent on debt service. All of these figures represent increases 
over our fiscal year 2008 spending levels and I will give you 
some background on them. We have provided additional detail in 
our legislative and grant request, which I would ask to be made 
part of the record.
    We foresee significant cost inflation, as we see across the 
Nation, in several important areas in fiscal year 2009. The 
most significant cost will be increases in wages, benefits, and 
fuel. Wage increases will be a byproduct of the labor agreement 
and will add about $27 million to our fiscal year 2009 budget. 
But the largest single category of cost increases is going to 
be benefits. This is principally a reflection of the growing 
cost of healthcare. We expect our total benefits cost to rise 
by $50 million in fiscal year 2009 and expenses associated with 
medical treatment and drugs are at the core of it. If we had 
not obtained cautionary agreements in our recent labor 
negotiations, they would have been larger.
    I think it is also important to mention at this point that 
we have a single additional expense that will come due in 
fiscal year 2009. As you may know from 2002 and forward, this 
company and many of its unions were unable to agree to the 
terms of contracts for our employees. In November 2007, the 
Administration appointed a Presidential Emergency Board under 
the terms of the Railway Labor Act to hear the dispute and 
recommend a settlement, which it did in early January of this 
year. The management of Amtrak has accepted this recommendation 
and we concluded a series of agreements with nine of our 
bargaining partners last month, the basis of it. The 
ratification process is on-going.
    The PEB recommended that Amtrak make lump sum retroactive 
payments to its employees to effectively extend the raises it 
offered back to the beginning of the negotiating period and 
Amtrak agreed to do so. Amtrak believes, at this time, that it 
has a financial wherewithal to meet our fiscal year 2008 wage 
and retroactive pay obligations, as well as its wage 
obligations in fiscal year 2009 and 2010. However, the sixty 
percent of the back pay, which totals about $114 million, that 
payment that the PEB recommended be made in fiscal year 2009 is 
noted separately in our grant request summary on page three and 
is not contained in Amtrak's fiscal year 2009 operating costs. 
The PEB was aware that Amtrak did not have the means to pay the 
additional sixty percent and recommended that the decision to 
fund this amount lies with Congress.
    To fund our fiscal year 2009 capital programs, Amtrak is 
asking for a total of $801 million. Of this total, we intend to 
use five-hundred-and-seven million to pay for the on-going 
state of good repair programs dedicated to the rehabilitation 
of our plant and equipment. In addition to meeting day-to-day 
state of good repair requirements, we are undertaking an 
ambitious capital program in fiscal year 2008. The replacement 
of the lift span on the Thames River bridge in New London, 
Connecticut, will be the centerpiece. We are planning a large-
scale blitz on our New England division in June, which will 
undertake repair and replacement work on electric catenaries, 
several interlockings, and most of the smaller projects. We 
intend to continue our capital investment program effort in 
fiscal year 2009, but our program to replace the lift span on 
the Niantic River bridge will hit its stride. Big projects like 
lift bridge replacement are expensive, but enduring. We expect 
to complete its span to last for a lifetime. Though we have an 
aging fleet, we will also be spending significant capital on 
bringing it into a state of good repair.
    We are also working to comply with the Americans with 
Disabilities Act and our 2009 budget includes $69 million for 
that effort. ADA compliance is going to be a significant 
challenge and Amtrak is seeking an extension of the current 
compliance deadline of July 26, 2010, because even if we had 
the regulatory guidance and resources to comply, it would still 
be impossible to achieve compliance by that date. Amtrak is 
fully focused on making its service accessible and we are 
pursuing compliance under the terms of ADA, but we will need 
additional time to accomplish that. New rules proposed by the 
DOT would materially change the standards for compliance under 
the Act with respect to station platform level requirements, 
would add millions of dollars to the compliance costs, and 
would deprive that aspect of compliance of any clarity and 
certainty. Even under the current law, Amtrak will need more 
time and more resources to achieve full ADA compliance.
    On the whole, I think our projections for the upcoming year 
are responsible and realistic and we can accomplish what we set 
out to do. There are a lot of points that must be considered 
and the rising cost of fuel and healthcare and our concerns 
over the financial health of the economy will all have a 
bearing on our plans. We are going to need new equipment and 
the age of our fleet is, if not an immediate concern, certainly 
a future one. But from where I sit, the leading indicators 
continue to trend in the right direction. I believe there is a 
pent-up demand for intercity passenger rail service in the 
United States. In the coming year, we will work to inform this 
discussion and to meet the expectations and needs of our 
customers. I would like to take the opportunity to conclude by 
telling you how hopeful I am that we will soon have new labor 
agreements fully ratified. I think we are going to have some 
big opportunities ahead and we will need a strong, skilled, and 
well-trained workforce with high morale, if we are going to 
make the most of them.
    I appreciate all of the hard work our employees put in 
everyday, sometimes in difficult or trying situations, and I am 
glad that we have been able to conclude a workable settlement 
and trust that our employees will embrace it. I, also, want to 
thank our Board of Directors, particularly Joe Boardman, of the 
FRA for their on-going support and their counsel. Thank you. I 
will be happy to answer any questions.
    [The information follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Olver. Okay. She is working on a different keyboard 
than I am working on.
    Mr. Boardman. That is the trouble Alex and I have.
    Mr. Kummant. That is right.
    Mr. Olver. Okay. As usual, we will take--I and the Ranking 
Member will take ten minutes on the first round and then we 
will go to five minutes.
    I want to go back over this funding for Amtrak slightly. 
Mr. Kummant, you have asked for $1.785 billion and that 
includes an amount, which is $114 million, so that the 
comparative, without that labor accord issue to be considered, 
is the $800 million that has been asked by the Administration 
versus $1.671 or something like that. So, that is in defense of 
my comment that your request was more than twice what the 
Administration's request was and turns out at the $1.785 
billion level, it would be $460 million. And that $110 million 
less, it would be $350 million, higher than we were able to 
give you in this year's budget.
    Now, I usually ask Mr. Kummant, what impact an $800 million 
funding level would have on Amtrak's service, its maintenance 
and capital improvements, and this time I am going to ask you, 
Mr. Administrator. You were in the position of being the 
Administrator of the Federal Railroad Administration, which has 
no line authority over Amtrak. But, you have to have a sort of 
a sense of what our purpose is on rail issues, and I will get a 
little bit later again in another round of questioning. But, 
you have that behind you. And you are also a member of the 
Board. So, you are right on the Board there in an influential 
position. And I need to ask you, what you think would happen if 
$800 million was all that we did? What are the exact kinds of 
changes in the route structure that you think would happen, the 
administrative changes that would happen or would have to 
happen, or the vision, for that matter, of the Administration 
of what it ought to look like, if we were to come up with that 
number? We have had the same number put before us year after 
year after year and Congress has refused to do it. Of course, 
we have been operating without authorization for all of those 
years. So, let me give you a try on that.
    Mr. Boardman. One of the things I wrote down as Alex was 
talking was the process. And under that category, I thought 
about exactly what you are asking me and that is, and not the 
essence of what you caught and how do you do the cost structure 
and what happens, but as the FRA Administrator, what is my role 
as sitting on the Board? And it is not just as FRA 
Administrator, because that hat that I put on, and Alex, and 
the senior staff here from Amtrak can tell you, that I think I 
talk about putting my different hats on as I sit on the Board. 
And it is the safety hat. It is the hat for the Secretary. It 
is the hat that is the Board member, which is a Board member of 
a private company, a private for-profit company, and also the 
hat of a passenger all believer. I think that passenger rail 
and intercity passenger rail are particularly critical for the 
mobility for the future of this country and the connectivity 
that that brings.
    So, there is a disconnect, what appears to be a disconnect, 
at least, in terms of what the Administration proposes as 
assistance to Amtrak with the intercity passenger rail. And, 
yet, I would say that there is an explanation for part of that 
disconnect. And the first explanation is that when you look at 
the capital side of this, there is a proposal to provide $525 
million of capital money to the Amtrak. And I think when Alex 
and I wrote the number down, Alex, I might be wrong, but he 
talked about the need for state of good repair was $507 
million. And I think the first piece of this, then, is when you 
have your safety hat on, your FRA Administrator hat on, the 
need for safety, the necessity to maintain a state of good 
repair is critical and that is reflected in what the 
President's budget proposes.
    Secondly, the thing that I think was new last year, is 
still critically important for the future, and that is to bring 
the states into a more important role in the future of Amtrak, 
because whether it is you, yourself, or whether it is Mr. 
Knollenberg or it is others, you see the fact that there is a 
necessity here to get the cost and control or the balance 
between the cost and the expenses of Amtrak for the future. So, 
there is an intent----
    Mr. Olver. A more important role is to get the States to 
put more money in, to pay more money.
    Mr. Boardman. Yes.
    Mr. Olver. Okay. That is what I get from the more important 
role, is that they have got to put a lot more money into 
passenger rail.
    Mr. Boardman. I think that is a good question, a good 
point. I think the need to have a debate about that is 
important, because, here, a couple of years ago, there was a 
congressional requirement for us to go out and do a--FRA, to go 
out and do an access fee with the commuter railroads along the 
northeast corridor. And the result of that was that the 
commuter railroads in the states along the northeast corridor 
were, in fact, putting the dollars in that they needed to put 
in to support Amtrak and intercity passenger rail services. The 
fact was, and David Gunn, and I almost was going to make a joke 
earlier that I called Nova Scotia this morning to find out what 
would happen to Amtrak if you only got $800 million, but I knew 
what David's answer would be, so I did not call.
    And so--I mean, from the standpoint of looking at the 
states, we have a very uneven level of support across this 
nation for intercity passenger rail services and that is part 
of what Alex is talking about, in terms of corridors, 
especially in the Northeast, especially in my former New York 
State and partly Pennsylvania.
    Mr. Olver. Okay. I guess, you would agree that there has to 
be a difference in the way the states fall on this. However, 
let me just--because ten minutes will be gone here very fairly. 
Mr. Kummant has asked for $800 million for capital 
improvements, although, apparently, from the nod that I saw 
when you said $25 million commented that he was asking $507 
million for state of good repair, how do those numbers fit with 
the working groups that I mentioned, which is part of NTSB, 
which is also very much involved in safety issues? How does 
that difference in numbers allow us to get out the backlog of 
$5 billion, which I thought was their estimate of the backlog 
just to reach state of good repair? Both of you will have to 
comment on this to kind of explain this difference to me, in 
the time that we accept.
    Mr. Boardman. I think there is, as with everything in 
Amtrak and intercity passenger rail, there is no really 
consensus agreement that $5 billion is a right number, or if it 
is $7 billion, or if it is a different number of what is needed 
to bring the Northeast Corridor up to a state of good repair or 
to maintain it. I think that there has been progress made, 
especially in the last few years, but the progress has to go at 
a level, at a rate that you can actually get the work done and 
not disrupt the reliability of the corridor, as well. So, there 
is that particular part of it in this process and in this 
discussion.
    Mr. Olver. All right. Mr. Kummant, also, indicated that 
just reaching ADA compliance would cost $500 million. I think 
that was the number. Sometimes, I lose $500 million versus $5 
billion. But, I think $500 million was roughly what was being 
said. That is also in there. And Mr. Kummant went through a 
long list of things that included the catenaries. The very 
catenaries on the Northeast Corridor are the one thing that 
allows a higher speed rail passenger system to function on 
those areas. And it seems to me that those are very necessary 
to keep going. How do we manage to even get toward higher speed 
rail in this country, a real passenger rail system, if we do 
not--if we are not able to do that on the Northeast Corridor, 
which carries half of all of our people? And he is saying we 
need $800 million to do that, to keep that up. I am still 
having a hard time understanding where the Administration 
thinks $525 million will do that, when he is saying $800 
million is necessary just to keep the improvements to get the 
higher speed on the northeast system. And there are tunnels and 
bridges and so on and so forth in that area. I have gone red, 
but you can answer that, if you would like, either of you.
    Mr. Kummant. Well, what I was going to say is, let me talk 
about areas where I actually think we do agree on. I do not 
want you to walk away with the impression that there is some 
big void here, because there really is not. Again, I take the 
Administration's proposal to say, ``Keep driving cost 
reductions and keep looking for ways to create a financial 
structure, including the states, that is an equitable cost-
sharing structure.'' We just cannot do it this year. That is 
going to be a multi-year effort.
    Do I think ultimately there is a $100 million of savings in 
our maintenance operations? Yes, we are working on that.
    Do I think this a reasonable number, $40 to $60 million in 
savings on our overall systems implementation? Yes.
    Do I think we have to go after the $300- or $400 million in 
cost sharing with the States? Yes, but that is probably also a 
six- to eight-year type of trajectory to get there, 
particularly given the difficult state of the U.S. state 
budgets.
    So, I do think there are multiple $100 million we could 
ultimately take out of our support number. That being said, I 
go back to what David Gunn estimated that the state of good 
repair would take about a $600 million a year funding over 
about ten years to catch up. The number I have in my mind is 
about $1.5 billion backlog in kind of day-to-day track issues 
and about $3 billion in major projects. So, the issue we have 
had over the last couple of years, we have lost ground a little 
bit, because we have only been funded between the $4 to $5 
million level.
    Mr. Olver. Okay. I am going to pass on to my Ranking 
Member. I am going to have to put these questions and ask each 
of you to answer, because I really want to know what you think 
happens to the Administrative picture and the personnel picture 
and the restructure picture in the scenarios that we are laying 
out. Thank you. Mr. Knollenberg.
    Mr. Knollenberg. Thank you, Mr. Chairman. I am going to 
start off with a little waste, fraud, and abuse question. Mr. 
Kummant, I am continually concerned about waste, fraud, and 
abuse, particularly in the Federal Government, and I believe it 
is the responsibility of this committee to root out these 
problems. I would note that the subcommittee has enacted the 
FAR measures and asked to address problems in Amtrak. And I 
want to thank the Chairman for procuring those provisions in 
this year's bill.
    I believe Amtrak has been working with the Inspector 
General on this. But, I have a question about Amtrak employees 
bringing their own food and beverages onto the train, employees 
that sell these items at a profit and pocket the profit for 
themselves. I understand there are some corrections underway. 
Some have been made. But, could you give me a little detail on 
what you have done about that issue?
    Mr. Kummant. Well, to my knowledge, if that is going on, it 
only goes on at very de minimis levels at this point. We have a 
very effective internal Inspector General. We have worked very 
hard on our overall food service. We have a great and effective 
out source contract with Gate Gourmet. We are putting in 
systems on the point of purchase inventory tracking and revenue 
management.
    Mr. Knollenberg. Let me ask you this.
    Mr. Kummant. Yes.
    Mr. Knollenberg. What measures, if any, are in place to 
discipline the employee, to punish him, or to remove him, or 
what? What is taking place?
    Mr. Kummant. We have a standard procedure that we 
internally and our Inspector General both follow and to my 
knowledge, this has really not been an issue for multiple 
years. I stand to be corrected by my staff, but that is 
certainly not a significant issue, at this point. Our 
fundamental focus has been on the effective operation of the 
food service, itself.
    Mr. Knollenberg. I would like to have some information on 
it.
    Mr. Kummant. Sure. I would be happy to provide that.
    Mr. Knollenberg. And I would like to see that. The GAO 
study on Amtrak has recommended, and I am quoting here, ``We 
examined the entire structure,''--this is for Mr. Boardman, by 
the way--``We are examined the entire structure of intercity 
passenger rail service with the focus on optimizing its 
performance on benefits with the federal and non-federal 
expenditures.'' In your opinion, is this economic benefits test 
the best, is it the only basis on which to base decisions about 
a particular passenger rail service?
    Mr. Boardman. The answer to whether it is the best, I do 
not know. The answer to whether it is the only is that it is 
not the only and it should not be the only way to look at 
passenger rail service. If you will repeat, sir, the last part 
of that. I do not know if I picked up just exactly what the 
question was.
    Mr. Knollenberg. Well, the only thing I asked was that in 
your opinion, is the economic benefits test the best and only 
basis on which to base decisions about a particular passenger 
rail service.
    Mr. Boardman. No, I do not think economic benefits--I do 
not think that cost benefit analysis in this country, 
especially for infrastructure today, really defines what we 
need to maintain our mobility and connectivity for the future 
and it has to be other than just cost benefit. And the 
expectation is when you take anything forward today, that cost 
benefit is only one of the elements that we really look at. We, 
also, have to look at the strategic purpose and the necessity 
to connect and provide those kind of things for the future.
    I had recent argument with some of the folks over at DOT in 
the policy area that many of our interstate highways would 
never have been finished had it been a cost benefit analysis 
that drove that, because it said do not build it on a cost 
benefit analysis. But, as soon as they were built, they are now 
full of trucks to maintain. So, no, I do not think that is the 
only answer.
    Mr. Knollenberg. If we were to adopt the GAO 
recommendation, the analysis is actually quite straightforward. 
Each rail line and the amount of service and types of service 
on each line, such as where to stop and how often to stop, can 
be evaluated and it either generates a positive return over 
time or it does not and is axed. However, is there any case to 
be made, in your opinion, that with a national transportation 
system, at least some benefits transcend the straight 
application of returns for the dollar invested? For example, 
the environmental cost that increased auto traffic resulting 
from the lost of passenger service increased congestion and 
other systems stress comes along, too. Can those be quantified, 
can those issues be quantified and factored into a benefits 
cost test for a specific rail line feature or features?
    Mr. Boardman. Certainly.
    Mr. Knollenberg. That is the answer? You said----
    Mr. Boardman. Certainly, those can be quantified. I can 
expand on the answer some.
    Mr. Knollenberg. I would suggest, is there something that 
you would select that might be worth pointing out in responding 
in writing on that issue?
    Mr. Boardman. Yes. I think that it is worth pointing out 
and I pointed it out in a recent board meeting that one of the 
strongest pieces of leverage that Amtrak has is their national 
connectivity and their connectivity to all those commuter 
railroads and other operations across the country and that I 
thought one of the critically important things for the future 
was for Amtrak to have a seamless payment method for the people 
that want to ride Amtrak or commuter railroads or intercity 
transit or bus services. So, just like E-Z Pass that really 
with a low-cost, back offish cost for Amtrak would become a 
revenue producer for Amtrak.
    Mr. Knollenberg. Let me go on to a question for Mr. 
Kummant. I want to challenge you a little bit about your 
request for a moment. Your testimony states that your request 
is for $1.671 billion. But, if the Committee were to provide 
exactly that amount, how would you pay for the 60 percent back 
pay that you have agreed to pay in 2009 and then what are the 
consequences of not providing the additional $114 million that 
is required? Even the detail, the justification states that 
these funds are needed above your request.
    Mr. Kummant. That is right.
    Mr. Knollenberg. What is your--is that cost not part--why 
is not part of your request?
    Mr. Kummant. I do not think it is necessary to have a 
semantic argument. Look, we fully support----
    Mr. Knollenberg. I am not asking for an argument. I am 
asking for why is it not--why is that cost not part of your 
request?
    Mr. Kummant. Well, it is not a core operating number. That 
is all that was suggested. Look, we support any and all efforts 
to fill that gap. Our position going into the labor 
negotiations, particularly the last round, is entirely 
consistent with what the PEB stated. Our offers early on were 
about 40 cents to the dollar on back pay we said we could 
manage. So, it is simply a reflection of the fact that there is 
the gap and we are very supportive of any and all efforts to 
fill that gap.
    Mr. Knollenberg. Well, it is, indeed, a gap. Let me--how 
much time do I have? Okay. Let me go into--your testimony 
refers to record increases in ridership, double digit growth on 
many routes, higher revenues across the board from virtually 
every aspect of the business. Yet, your demand from the 
taxpayer for 2009 is nearly $350 million above the 2008 budget 
and you project a net loss of $500-$600 million in 2009, which 
is up from $457 million in 2008. Can you explain to me why all 
this good news is costing more and is that a long-term trend or 
a short-term phenomenon? I will stop there.
    Mr. Kummant. That is a great question and, to break it into 
two pieces, first is the operating piece. We are in an 
inflationary period. There is no question that going forward 
with our wage settlements is a piece of that, $27 million. We 
are seeing fuel costs going up quite dramatically and with, 
again, a lot of varying forecast going forward. And, of course, 
medical benefits had a flat period for a while in the 1990s 
and, unfortunately, medical benefits costs for us are going up 
dramatically.
    Mr. Knollenberg. You have suggested that there will be 
deductibles and cost-sharing.
    Mr. Kummant. That is right, even with those cost-sharing 
numbers. But let me, also, reflect for a moment, if you take 
that support number as a percentage of our total operating 
budget, it is actually the second smallest number in the last 5 
years. We are having a very good year this year with 
essentially good ridership. We still see the tail end of cost 
containment. But, cost curves, unfortunately, have kinks. I 
have run many businesses where you run into that. A few years 
ago, we all saw the commodity price increases. I was in an 
electronics-based business and copper prices went shooting 
through the roof. There was not much you could do about that. 
And we are facing those same pressures today.
    Mr. Knollenberg. I am going to another point. I will try to 
get this in the time left. The budget you presented is based on 
a 3\1/2\ percent increase in growth in revenues, which is 
slightly below the 5-year average.
    Mr. Kummant. That is right.
    Mr. Knollenberg. However, during the economic slowdown back 
in 1991, which was a mild short-term slowdown, ridership 
dropped by fifteen percent.
    Mr. Kummant. That is right.
    Mr. Knollenberg. In today's market, is business-related 
travel still a dominant source of revenues for Amtrak and, 
overall, how sensitive are your revenue projections to the 
overall economy? And, finally, one of the consequences of your 
2009 budget request, if that same drop in ridership, it could 
be worse----
    Mr. Kummant. That is right.
    Mr. Knollenberg [continuing]. Which will occur.
    Mr. Kummant. Well, that is the question. It is a great 
question. There are never easy answers to that. There is a 
fundamental approach, when you are looking at the question of 
what is the economy doing, and when is there a horizon effect, 
is there going to be a recession or not, how deep is it. The 
only thing you can do is pick a conservative revenue number and 
manage costs very hard. We are taking a lot of cost containment 
actions across the business today. If I turn it around, I guess 
I would say, what are the alternatives? The alternatives would 
be to actually sit here and ask you for a whole lot more money 
or to say, we have to----
    Mr. Knollenberg. You have not.
    Mr. Kummant [continuing]. We have to initiate----
    Mr. Knollenberg. I am.
    Mr. Kummant [continuing]. We have to initiate radical route 
reductions today speculatively, because we do not know what the 
economy is going to do. So, what we chose to do and, again, 
what I have done in many other businesses, you pick a 
conservative revenue ridership number, and you see the revenue 
number of three, three-and-a-half percent, as opposed to a 
seven or eight percent, because we do not know, and then you 
really contain your costs as hard as you can and then, we are 
going to have to just keep a sharp eye on it. But, if ridership 
drops fifteen percent, yes, we will have a tough issue.
    Mr. Knollenberg. I do not want to be funny, but maybe 
sometimes when ridership drops, maybe you would make more money 
than you would if it was spiking.
    Mr. Kummant. Well, not in the Northeast Corridor, that is 
for sure.
    Mr. Knollenberg. Understand. There are certain sectors that 
are doing fine. Thank you, very much.
    Mr. Kummant. Thank you.
    Mr. Olver. Mr. Pastor.
    Mr. Pastor. Good morning, Mr. Chairman. Thank you. First of 
all, I want to thank the subcommittee, the Chairman and Ranking 
Member. As I begin to learn more and more about this intercity 
passenger rail program that got funded, the $30 million, I 
think it gives flexibility to the FRA Administrator and State 
agencies to be able to develop planning grants and submit 
proposals. So, I want to congratulate you and I agree with the 
CEO of Amtrak, this will probably be something that is going to 
do well and this subcommittee may be asked to increase that 
amount. So, first of all, I want to congratulate you and I want 
to thank the FRA Administrator for allowing Mark Yachmetz and 
Mark Schnabel to be in Arizona. We had a great, great meeting 
and Arizona ADOT is coming forward with a plan, and that 
happened because of a conversation we had last year. So, thank 
you, very much, and I want to commend those two gentlemen for 
the fine work they did over in Arizona.
    I want to talk about the PEB. As I understand, that 
decision came sometime in December. But, I want to ensure that 
since that decision was made and to date, that you have 
ratified negotiated contracts with nine of the unions.
    Mr. Kummant. Actually, it is up to 12.
    Mr. Pastor. Up to 12.
    Mr. Kummant. Because, there are unions that were not in the 
PEB that have already come in that we have tentative agreements 
with.
    Mr. Pastor. And that is for future----
    Mr. Kummant. That is correct.
    Mr. Pastor. That is for future.
    Mr. Kummant. It is basically the same.
    Mr. Pastor. And I guess they are in the ratification 
process?
    Mr. Kummant. That is correct.
    Mr. Pastor. Do you see any problems? I am sure you keep 
contact----
    Mr. Kummant. Well, not to my knowledge. It is essentially a 
quiet period. One does not really know. We do not expect a 
problem. But until it is said and done, you just sort of keep 
doing what you are doing until the tallies are in. But we do 
not really anticipate an issue.
    Mr. Pastor. In a worse case scenario, if there are some 
non-ratifications, do you expect then to renegotiate?
    Mr. Kummant. Well, I think we would probably come back and 
sit down with you and sit down with union leadership and it may 
be--I do not know the answer to that. I do not want to be too 
speculative there. I really think we have done everything the 
PEB has asked us to do and I just think we will have to cross 
that bridge when we come to. March 10, I believe, is the 
ratification date for the first nine. So, we are almost there.
    Mr. Pastor. As I understand, the first installment is going 
to be about $76 million or around that ballpark figure.
    Mr. Kummant. The forty percent.
    Mr. Pastor. Yes. Is it covered by your budget request?
    Mr. Kummant. We have managed--again, we have worked--you 
have to put this in perspective. We have actually worked very 
hard. For all the comments we get about what are you doing on 
cost reductions, we have actually worked very hard in the last 
five years to even this year be able to say, ``Hey, we can 
manage that.'' So, the cost reductions that we have driven over 
the last five years have allowed us in fact to manage paying 
the wage increase out of operating funds. So it really is the 
result of the work that has gone on and all the efficiencies 
there have been made.
    Mr. Pastor. When Secretary Peters was here a couple weeks 
ago, I asked how is this going to be handled in 2009, and at 
that point, she said, because the decision came out so late--
December--that the probability was it was not included. The 
second installment, the 60 percent, was not included in the 
2009. But I read in your testimony on page five that you have 
put it in, oh, what account is it?
    Mr. Kummant. Well, we have always said that the second 
piece, $114 million, is a gap that we within our own finances 
cannot close. We are supporting any and all efforts to work 
through that, and that is again why the contracts have a 
contingency piece related to that.
    Mr. Pastor. But you put it in on page three of the 
legislative and grant request. Now what does that mean?
    Mr. Kummant. Well, we have not budgeted for that. We are 
not able to budget for that. We just referenced that. I mean, 
that is the gap that needs to be closed. You mean in the chart, 
the bottom line?
    Mr. Pastor. No, from your testimony at page five, you say--
--
    Mr. Kummant. Oh, my testimony.
    Mr. Pastor. Yes, your testimony. The summary table on page 
three of the ledge and grant request. So is that a line item 
that is already funded?
    Mr. Kummant. Oh, it is not funded. We are referencing that 
as the gap. That is clearly the requirement to fill the gap 
that, again, we identified even before the PEB, that the PEB 
referenced.
    Mr. Pastor. Okay, well, I am in yellow now. So possibly the 
employees bringing food and selling may be because of the lack 
of contract for the past eight years, and they are augmenting 
their salaries. [Laughter.]
    Mr. Kummant. Well, you know, you will have to get testimony 
from them on that.
    Mr. Pastor. Well, I just thought about that. That may be a 
way that you can meet your 2009 back salary. Thank you, Mr. 
Chairman.
    Mr. Olver. Is it not the accumulation of those back 
salaries something close to 30 percent? I mean, just to suggest 
that that might be exactly true; anyway, Mr. Berry.
    Mr. Berry. Thank you, Mr. Chairman.
    I believe that you testified that there were several places 
where you thought there was some savings. I remember one 
number, $107 million. Was that right?
    Mr. Kummant. I said in maintenance processes over the next 
five years, we felt we could probably achieve about $100 
million in savings.
    Mr. Berry. Then you mentioned another $40 million to $60 
million?
    Mr. Kummant. Well, I said we have a complete basically 
rebuilding of our systems infrastructure. That is a very 
difficult number to pinpoint to say, what are the specific 
savings. Because that enables really a lot of other projects to 
be effective. But I think if you took a rough number of $40 
million to $60 million over time, I think that could be 
achieved.
    Mr. Berry. I would be really interested in more details 
about why you think that.
    Mr. Kummant. Sure, we will be happy to provide that.
    Mr. Berry. In the time that I have been in the Federal 
Government, we always used this phantom number out here of 
waste, fraud, and abuse.
    It is an old term. It still hangs around, but it seems like 
that never gets done. No matter what happens, there is always 
more waste, fraud, and abuse that somebody is referring to, and 
it is quite elusive. I would like to know more about it.
    Mr. Kummant. I would be happy to do that. I have hung 
around the private sector for the last 20 years, and we are not 
allowed to do that. So I am certainly very committed.
    Mr. Berry. You are not allowed to pull these numbers out of 
thin air?
    Mr. Kummant. Not entirely, no.
    Mr. Berry. Okay.
    Mr. Kummant. We are actually called on the carpet, and it 
is suggested we go do other things if we do not achieve those.
    Mr. Berry. That might be a good thing.
    Thank you, Mr. Chairman.
    Mr. Olver. Thank you, Mr. Berry.
    You know, I do not mean for my comments to sound 
confrontational in any kind of a way.
    Mr. Boardman. I suspect that is for me then? [Laughter.]
    Mr. Olver. Well, no, in both cases, I was looking at you, 
Mr. Boardman. As you know, I commented that I was hopeful at 
some point that we would create a passenger rail that fit into 
a balanced transportation system. That is the way I think of 
it.
    You have said that you are a believer in intercity 
passenger rail. Now you did not go on to say how it is fit into 
the balanced transportation system. But that, I think, is 
almost a given. I can almost hear it being part of that being 
said.
    I want to get some vision out of you two here. In the ISTEA 
bill, now more than 15 years ago, there was a whole pattern of 
high speed rail corridors that were created. They have been 
changed a little bit, including one that I made in the 
northeast corridor in the authorizing bill of three years ago, 
and there may have probably been some others.
    At that time, there were even some authorizations for 
programs which might have been considered as important pieces. 
In one of those authorization bills, and I am not sure that I 
remember precisely, there was a rail relocation program of $350 
million per year. No money was ever appropriated for that.
    But it has continued; and this past year, we started out 
suggesting $35 million, which you have commented on, that yes, 
you are there and you are working on a set of regulations to 
allow that to be implemented. Ultimately, we ended up having to 
cut it to $20 million.
    Then while there is no authorization for Amtrak, the idea 
has crept in, in the last couple of years, for $100 million for 
intercity grants, state grants, which are 50/50. So it sort of 
indicates where you think that capital ought to have been paid 
for, for a national rail system, through all these states, all 
of them putting in 50/50 or something. I will leave you to tell 
me a little bit about that in the earlier question that I put 
forward.
    Last year, we could not keep that at the level. We started 
out with $50 million in what the Committee came out with. But 
by the time conference was over, that had been reduced to $30 
million. So it is only $30 million, but all of that is left as 
discretionary money. I am not even sure whether that is done by 
you, Mr. Kummant, or by you.
    Mr. Boardman. Yes.
    Mr. Olver. But it would presumably have connections to our 
other passenger rail systems. It would be sort of silly to have 
it disconnected to those other things.
    Mr. Boardman. Let me address this, if I can. It crept in 
there because it was proposed by this Administration, by 
myself, for $100 million.
    Mr. Olver. Right.
    Mr. Boardman. It was to continue to move forward on some of 
the direct basic requirements for reform that included the 
states involved with this. Our proposal included a 50/50 
matching, where there was a lot of debate.
    I think at the time, if you remember, Congressman, that 
maybe it ought to be 80/20, like highways and so on and so 
forth. Well, my own belief was that we would get a lot more 
done with 50/50, because the state would actually have to put 
serious dollars up in order to make improvements.
    But it is an incremental issue. It is an incremental way to 
improve railroads. But it has to get started somewhere, and you 
recognize that. The members all recognize that; let us get 
going with thing, and let us certainly find a way to advance 
this. It puts us on the map, so to speak, with a program that 
never existed before, for the states.
    Mr. Olver. Okay.
    Mr. Boardman. Now if you will permit me, because you are 
asking for some vision on how it connects and how it does not 
connect.
    Mr. Olver. I did not even finish my question. But that is 
okay. [Laughter.]
    Mr. Boardman. All right, let me stop.
    Mr. Olver. Finish where you are. I am going to let it pass 
and go on, because I am going to come back exactly where I 
stopped and try to tie those things together; Mr. Knollenberg.
    Mr. Knollenberg. Thank you, Mr. Chairman, and thanks to 
both of you. I know that some of these questions are difficult, 
but we would like to ask them anyhow.
    Turning to the cost side for just a moment, and first to 
Mr. Boardman, DOT is proposing $525 million for capital grants 
to Amtrak for 2009. This can be a quick answer. How much of 
that do you estimate is to service the $3.9 billion in debt?
    Mr. Boardman. None of that.
    Mr. Knollenberg. None?
    Mr. Boardman. I do not believe, no.
    Mr. Knollenberg. You do not want to verify and let us know?
    Mr. Boardman. No, it is not.
    Mr. Knollenberg. It is not? The reason I am asking is 
because Amtrak appears to have a large amount of debt that is 
very vulnerable in today's market. In particular, there is 
almost $900 million in defeased leases that at the moment is 
highly vulnerable.
    Specifically, I mean the AMBAC, which insured all $900 
million, appears to be at risk of losing its AAA rating, 
because of its involvement with securities or insecurities; 
like, for example, the sub-prime mortgage business.
    Given the turmoil in the industry, that is being written 
about every day, why would it not be in the Government's 
interest to eliminate that debt as soon as possible? DOT could. 
It could have included funds to do that, and would have still 
been at well below the 2008 enacted levels.
    So I want to ask Mr. Kummant, what is your view on this 
issue; and what are the implications of Amtrak's defeased 
leases, if the credit rating of AMBAC is lower, through an 
insurance company?
    Mr. Kummant. That is right.
    Mr. Knollenberg. They got into this thing a little over 
their heads. So how does that impact you; how severe is that?
    Mr. Kummant. That is right. The number of the exposure is 
probably about $150 million. There might be about $150 million 
in debt that we would have to go out and pay off. It is 
possible.
    But let me also say, if that were to happen, that is all 
subject to negotiation. It is not clear. We have a good record, 
in fact, on how we have managed our debt in the last five 
years. We have reduced our debt $600 million. We have added no 
new debt. This entire market is hardly being worked today by 
the letter and comma of agreement.
    So $150 million is probably the worst case. But we will 
have to see where it goes. I mean, I think the stories on Ambac 
vary daily with, ``Here comes the bail out'' to ``The bail out 
is not a enough; here is a little more bail out.'' So we will 
just have to see how that goes. We have outside counsel.
    Mr. Knollenberg. We will all have to watch that.
    Mr. Kummant. Let me say, in general, on the debt question, 
we have proposed a larger debt service number, as you see. 
About half of that is for debt service and half is for 
repayment.
    We would like to accelerate debt principal repayment, and 
that is why we are asking for a slightly larger number, to 
continue the good streak we are on; but also to open up some 
debt carrying capacity to also deal with the equipment issue we 
have coming over the next five years. We would like to take out 
$500 million in debt, over the next five years.
    Mr. Knollenberg. With respect to the labor agreement, as I 
see it, you owe $536 million in back pay, and another $86 
million in additional COLA adjustments in 2009, based on the 
agreements about to be ratified.
    Further, there is a prospect of more than a five percent 
increase in wages and benefits each year, into the future. Is 
that relatively close?
    Mr. Kummant. It is close. I would quibble with them a 
little. It is more like four-and-a-half and four percent.
    Mr. Knollenberg. And for that, you got no changes for this 
decision, no changes in work rules, cut costs or run the 
corporation more efficiently in the agreement. Is that correct?
    Mr. Kummant. That is correct, yes.
    Mr. Knollenberg. Can you give us some idea how this 
benefits package, if you will, compares to the Federal Service 
package?
    Mr. Kummant. Well, the overall benefits package is pretty 
similar. I think there are some differences in medical. There 
probably are some elements in our medical package that are a 
little bit better. But they are, I would say, really in the 
same ballpark.
    You know, again, on the overall wage issue, the two out 
years, I believe, are four and four-and-a-half percent; and 
look, we have been criticized for not exercising fully the work 
rules we have access to today. We certainly intend to continue 
to do everything we can to reduce costs, and we will have to 
avail ourselves of some of those opportunities.
    But let me also say, I do think that it is impossible to 
put a number on putting this behind us, the overall coming 
together of management and the front lines, and the improvement 
in morale. But let me say that it is real, and I do expect a 
good couple of years of co-operation.
    Mr. Knollenberg. Is there any economic benefit being gained 
as a result of the higher employee cost, going forward?
    Mr. Kummant. Well, I mean, I think by definition, you could 
say no. But I do think the morale piece is real; and at the end 
of the day, our employees are being paid market. We never 
really had a quibble with the core wage number. That was very 
close to our original proposal. It was our ability to manage 
the back pay piece that really was the sticking point for so 
many years.
    Mr. Knollenberg. Thank you; thank you, Mr. Chairman.
    Mr. Olver. Mr. Pastor.
    Mr. Pastor. I want to yield my time to Mr. Boardman and I 
congratulate him. Because I think what you have done, in 
organizing and implementing this program of providing grants to 
states to develop in conjunction with Amtrak and other inter-
modal systems, a passenger rail system, is very important.
    I think the step you took with the Ranking Member was 
probably a larger step than most people realize. So I would 
like to hear also the vision, because I think we all have a 
chance to utilize this grant. So I will yield my time to Mr. 
Boardman.
    Mr. Boardman. Thank you; let me go back then to where I was 
in terms of the incremental approach that we saw was absolutely 
necessary in order to make progress.
    As you began to look out, what would states really use this 
for? What would they begin to try to do? What we found was, 
there were a lot of activities that could occur. One of them is 
perhaps a planning for a new line, such as Tucson to Phoenix.
    There also was, how do we make sure that our intercity and 
our long distance trains stay on time? How do we get on-time 
performance, so that people can trust the reliability.
    I think that Amtrak has done an excellent job on that, on 
the Northeast Corridor. They have made the changes. They have 
made the improvements necessary to stay on time, and they had 
reliability. Reliability in transportation, whether you are in 
a car or a plane, or a train, is absolutely critical for the 
future.
    So there were things that the States could do, in concert 
with the freight railroads. Part of the discussion that you had 
earlier, Mr. Chairman, was in that number of $7 billion-
something that Frank Busalacchi's group came up with, which was 
on a lot of the private railroads that are out there today, 
whether it is the UP, or the BNSF, or CSX, or whether it is a 
Norfolk Southern, is that they had always in the past made 
changes that accommodated freight rail, and not necessarily 
passenger rail.
    In order to get these trains on time, they needed to make 
some changes. They had to have some passing sidings, for 
example, so that they could get by the slower freights, to get 
them on time, to those kinds of improvements. This program 
allows that, and it allows the states and/or the freight 
railroads to participate in this; so that there were those 
improvements.
    But the other thing I wanted to jump to was, how do you 
make the larger improvement on reducing the time of mobility? 
High speed rail can be defined different ways by different 
people. It can be the Maglev. It could be a conventionalized 
speed rail. It could be, the Europeans talk about, that they 
already have a high speed rail.
    I recently met with William Spur with Bombardier, who 
talked about his equipment being already available to do high 
speed rail.
    We are supporting, in our research right now, the next 
generation high speed rail tracks that we are looking at, 
because of the difficulties that we had on the Acela project, 
and the heavy weight, and the creation of the difficulties on 
the tracks that were on our existing high speed rail trains.
    The problem that we run into, and it is disconnect 
passenger rail all over the world, is that the European 
concept, they believe, can come to the United States, be put on 
our tracks, and operate on our tracks. But our tracks are 
freight tracks, for the most part. They are heavy freight 
tracks.
    So the FRA has some very stringent and important safety 
requirements for buff strength on these trains. When you take 
an existing design and try to just add more weight to it, to 
meet our buff strengths, you run into the kinds of problems 
that we saw with Amtrak's Acela program.
    So part of what we are also looking for is the states to 
work with us, in concert with us, just like when Colorado Rail 
Car wanted to have a new, approved rail car. They came to the 
FRA, and they worked from the ground up to build a train that 
could be used on our freight tracks, be safe, meet our 
requirements; and that we could expand service with that train 
or their DMUs.
    We want the same thing for the future. So when Amtrak talks 
about an equipment plan, an equipment vision for the future, he 
is talking about two pieces of it. One is to take the equipment 
that they currently have, get it re-built, and use it for the 
future; but also to add the kinds of services that we are going 
to need for reducing travel time.
    The reason I am talking about us reducing travel time--
there is a guy who had a high speed rail program in New York 
called the Turbo Program. What we really began to understand is 
what we wanted between one stop and the next, or the full 
distance of the length of the trip, is to have a reliable, 
reduced travel time between those two locations.
    It did not matter whether we were doing 115 miles an hour, 
130 miles an hour, 180 miles an hour, or 60 miles an hour. In 
some cases, and you brought this up yourself, Mr. Chairman, we 
could make the most improvement by improving our time through 
Baltimore, in order to really improve the Northeast Corridor. 
That is a critical element.
    But there is also a huge cost in getting those few minutes 
added to our time. So there are other things that can be done 
with this same money; this talk about working with the states.
    When FRA went out and had a practical look at, for example, 
the alignment here just in Virginia, to improve the commuter 
services with VRE, what we found was, if you just raised the 
height of the platform, and reduce the dwell time for the 
trains, you actually can do more to improve not only ADA 
compliance, but also improve the travel time between Richmond 
and Washington, D.C.
    So it is connected together. If you were going to jump 
forward and have a huge improvement, in my mind, it is a grade-
separated, electrified rail service from Miami to Maine. The 
way you do that, and the reason you do that, is because you 
already have the alignment. But it is a private alignment, and 
we do not have the policies to deal with the private sector 
that already owns the lines. We have policies that we are 
working on that we have public sector infrastructure, that we 
want to privatize. But we are talking about, for the future, 
for rail; to have the way to find a public partnership with a 
freight railroad such as CSX or Norfolk Southern to make that 
real for the future.
    It may be as simple to start with as providing a 100 year 
lease to move this concept, this idea forward. That is not a 
job for Amtrak. That is a job for us at the Federal level, to 
really talk about, how do we get that done for the future. It 
is a job for Amtrak to operate on that in the future.
    When we look at what is needed first, and I know I am going 
over my time and I will stop, in the congestion that we are 
dealing with in the northeast today, it makes absolutely no 
sense to go from Atlanta, in aviation, to Charlotte, by way of 
Philadelphia, when you have a line that you could operate.
    That is part of what is happening to air congestion in the 
northeast; is that we are going from a milk run from Atlanta 
into Philadelphia or Dulles, and then coming back to Charlotte 
to deliver the transportation service from Atlanta to 
Charlotte. It makes no sense. It should be from Atlanta to 
Charlotte by rail, and I will stop.
    Mr. Olver. Thank you; Mr. Berry.
    Mr. Berry. I do not have any more questions, Mr. Chairman, 
thank you.
    Mr. Olver. Ms. Roybal-Allard.
    Ms. Roybal-Allard. I believe that this was mentioned 
earlier, and that is the fact that the Administration did not 
include the $114 million second payment for the labor agreement 
in its 2009 request. The question I have is, since it is not 
part of that request, how does Amtrak plan to fund the second 
installment of its retroactive wage increase?
    For example, does the Administration plan to make a request 
for an Emergency Supplemental to fund the second installment; 
and if not, what plans does Amtrak and the Administration have 
to ensure that the second installment is, in fact, funded?
    Mr. Boardman. I will handle this, at least first. The 
Administration initially was told, I think it was in the $150 
million level. So we look at what Amtrak has done thus in 
determining what those costs are, down to $114 million, I think 
is the number that they put in there at this point in time.
    As we talked about earlier, Congresswoman, we do not have a 
ratification yet with the unions. So from a technical 
standpoint, we do not know if that really works yet, or whether 
it does not work.
    We are not planning on proposing, at least at this point in 
time, anything different than what we are proposing for Amtrak 
funding. Yet, we understand that there is this difficulty 
there. We are looking ourselves at this number at this point in 
time to see, is there anything else that could be done at this 
point about these numbers, and we have not determined that 
there is. So, no, we are not going to propose it.
    Ms. Roybal-Allard. The concern, that everybody has is that 
we risk returning back to the status quo of the last several 
years, where there is no contract and we have the threat of 
another strike. So this is something that does need to be 
looked at and hopefully resolved to the satisfaction of 
everyone.
    Mr. Boardman. I understand.
    Ms. Roybal-Allard. Mr. Boardman, in your prepared 
testimony, you say that your 2009 budget proposes establishing 
a new competitive pilot program to ``test the viability of 
using non-Amtrak operators on selected routes to provide 
passenger rail service.''
    Can you please elaborate on this pilot program, and what 
criteria the Secretary will use to choose the routes for the 
pilot projects. The concern I have is that it will be counter-
productive to transfer operations of any successful routes to a 
pilot program that would be run by private operators.
    Obviously, if that were to happen, at the end of the pilot, 
Amtrak's bottom line definitely would look worse, not better. 
Can you tell me what the plans are?
    Mr. Boardman. Sure, first of all, the Secretary would not 
choose any routes; neither would the Administrator. This is a 
proposal that goes back to the basic reform that the 
Administration has been looking for with Amtrak. That is to 
introduce competition to Amtrak to improve their operating 
position.
    So that was what the proposal was. We would be looking to 
Amtrak to identify some places where this could occur.
    Ms. Roybal-Allard. It actually would be Amtrak then that 
would be identifying?
    Mr. Boardman. Yes.
    Ms. Roybal-Allard. Okay, thank you, that is all I have.
    Mr. Olver. I am going to yield, because my Ranking Member 
needs to leave to go some place else.
    Mr. Knollenberg. Thank you, Mr. Chairman. I will be fairly 
brief. A gallon of diesel fuel, as you gentlemen well know, has 
risen from $2.10 a gallon to about $3.50 a gallon in just the 
last two years; and you face, I believe, about $1.5 billion in 
the near term, to meet requirements under the ADA, which is a 
solid chunk. That is about right, is it not, about $1.5 
billion?
    Mr. Kummant. It depends on what base assumption you use. If 
you use a range, it is anywhere from $300 million to $1.5 
billion, depending on what course is taken.
    Mr. Knollenberg. I will not hold you to that. But that is 
in the ballpark, is what I am trying to suggest here.
    How much would the ridership have to increase to cover 
these costs? Have you have an idea of that?
    Mr. Kummant. Well, at the end of the day, frankly the 
ridership cannot increase enough to cover that. I mean, we 
could grow our ridership perhaps, you know, 15 to 20 percent by 
2015, and that would give us, you know, a 30 to 40 percent 
revenue increase. But ridership increase could not cover that 
total.
    Mr. Knollenberg. What other cost-cutting measures are 
available to you, to help you balance these cost increases?
    Mr. Kummant. We are working very hard on our maintenance 
processes, which is a big cost, but it is also an enabler to 
drive more revenue, as you free up more equipment. I think long 
term, as Joe mentioned, the cost shift and cost sharing with 
the states is a path we have to go down.
    Our overall systems implementation--and we have spent a lot 
of time with the Canadian National who went through a similar 
process and found it a real enabler for them to manage the 
business differently--is a large piece of that.
    So again, I think we work on that every day. But at the end 
of the day, I think when large external costs are imposed, you 
simply cannot answer the bell on all of those.
    Mr. Knollenberg. Your justification also indicates that in 
many circumstances, you are running up against capacity 
limitations in key revenue-related areas, such as the Acela, 
and I think we were talking about that a moment ago.
    Mr. Kummant. That is right.
    Mr. Knollenberg. If that is the case, why do you think you 
can maintain about the same level of revenue growth as you have 
in the past, and how quickly can you realistically increase 
capacity in higher revenue areas?
    Mr. Kummant. Well, we do not actually maintain that we can 
keep this revenue growth going. I think that if you look over 
the next five to seven years, we could probably continue 
revenue growth at a four to five percent compound annual growth 
rate, with a ridership of maybe about three to three and-a-half 
percent. So there is a lot of price management involved in 
there.
    For example, today, there are about three million riders on 
the Acela product and about seven million riders on the rest of 
the Regionals on the Northeast Corridor. We have to manage our 
pricing and do revenue management, and also attract more riders 
to the Regional product.
    Mr. Knollenberg. A final question, how much of this annual 
cost could possibly be passed on to the States?
    Mr. Kummant. Well, in fact, we work this a station at a 
time. There are partnerships with communities, with local real 
estate people. The ownership of stations varies greatly. Even 
freight railroads have pieces of them. So every individual 
station has really its own financial solution. So there are a 
lot of different players involved in that.
    Mr. Knollenberg. Thank you very much. Mr. Chairman, thank 
you and gentlemen, thank you very much for being here today and 
taking all the questions. We appreciate it.
    Mr. Olver. Mr. Boardman, I am going to go back to where I 
was because I was sort of developing a point. I had commented 
about the State's matching-grant program, which we talked 
about, and also about the rail relocation.
    The next thing that I was going to mention was the next-gen 
planning program. It seemed to me that those three things are 
the only things over the years that I have served in Congress, 
which just about goes about to the ISTEA date.
    In fact the first thing that was being debated when I first 
came into Congress in 1991 was the ISTEA Bill, which carried 
that original high-speed rail authorization, the original set 
of corridors, five or so of them at that particular point. It 
seems to me that those are the only real things that have been 
appropriated for in this, and we have made no significant 
progress on it.
    In the meantime, and maybe even before that, and over a 
period of time, many of the countries in Europe: Germany, 
France and Spain, and connections to Belgium and the 
Netherlands, and so forth out of France and Germany, as well as 
China.
    China, now, I think the one working Maglev that actually 
functions and has been operating for a year or two for only a 
30-mile distance or so from Shanghai to its airport, but it is 
there and it is going. I do not know of any other one that is 
actually taking passengers on a regular schedule. It is more in 
an experimental kind of a role, but there are.
    France has used conventional high-speed rail on rails that 
go almost as fast as the Maglev, any in the same range, just 
about within a few miles per hour of the same range.
    Now, those conventional high-speed rail systems all 
function on the basis that they are within 500 miles with a 
group of large cities that may sit 100 miles apart or so is a 
good place to have high-speed rail. There are strings of pearls 
in this country of essentially the same sort of thing.
    The whole Northeast Corridor from Boston to Washington is. 
But, in the other direction, another 500 miles gets you to 
Atlanta, and you made the comment that you would like to see it 
from Miami to Maine, or at least Boston, let us say, because 
you do not have any 100,000 population areas north of cities, 
north of Boston.
    But you would like to see that kind of a high-speed rail 
system that covers that, and you laid out that there are 
problems because it is all on private track.
    Well, many of these, if not all of them, in the places that 
I have mentioned, at least in Europe, and I know less about say 
Korea, but I know that Japan has a dedicated--which is 
passenger rail and no freight. The extensions of Japan's core 
high speed rail system will be publicly owned and then 
contracted with an operator. That is the only thing that runs 
on it. It is going from these great large populations.
    The other kinds of places where there are strings of 
pearls, from Seattle to say Vancouver, down through to Portland 
and maybe Eugene, to cities of over 100,000, roughly 100 miles 
apart, somewhere in that range, or the connections outside of 
Chicago, in all directions there fit into that kind of rubric.
    And, by the way, it is roughly the same thing as Phoenix to 
Tucson, and I, too, am grateful for your sending Mr. Yachmetz 
and Mr. Schnabel out to look at the situation out there. I 
think it is a perfectly good kind of a place to go.
    How do we get there? We have had 15 years. We have been 
stuck on trying to figure out what to do with AMTRAK and never 
funding it well enough to even have high-speed rail, just its 
major line from Washington to Boston, which is trackage that we 
own. We have not gotten there. Those others run on averages of 
90 to 120 mph. At their tops, they are on rails that are rated 
for 200 kilometers per hour, I guess.
    I am saying numbers too quickly I think here. But how do we 
get there? By the way, I have the greatest respect for both of 
you. This is going to have to be answered in writing, at some 
point, because I am already on red. But I have the greatest 
respect for you, and I suspect if we had you with an 
Administration that wanted to solve this in a realistic way, I 
think we might make some progress. I particularly think so 
because you come out of New York. You could not come out of New 
York without having some understanding of this situation.
    And what a huge amount of traffic in the air space which is 
more than doubling over the next 10 or 15 years in what you 
described from Atlanta and Charlotte and Philadelphia, and that 
whole corridor along that way that I described south from 
Washington to Atlanta.
    I have not given you any time to answer at all. I will pass 
on to Mr. Pastor at this point. You will get a chance, though.
    Mr. Pastor. I will help you with the answer. Let me go 
back. It is a step that this subcommittee took to allow the FRA 
Administration Office and the state, and the state with all its 
stakeholders, which includes brake lines that are involved in 
the state; and, in Arizona, the two that are there are in a 
dilemma because they have so much cargo coming from Los Angeles 
and the Long Beach Port, coming through Arizona, so they are 
retracking. They are looking at what their future needs are 
going to be. You have the need to connect Maricopa County with 
Pima County, with Pinal County in between. That is going to be, 
if not the fourth, probably the fifth, mega-city. When you talk 
about mega-cities, it is going to be a mega-city, so now is the 
time.
    You, the subcommittee, have been given the opportunity for 
the FRA Administrator and the state, with its stakeholders, to 
meet and begin saying, incrementally, this is what can be done. 
This is what is available, with the Indian tribes, with the 
State trust lands, with the cities and towns in between, with 
the counties, to begin developing a plan.
    That is what it can do. The first step is going to be: 
developing a plan. It brings in all the stakeholders. Once you 
connect, then you start talking about how this links up Tucson 
with Amtrak; and the possibility of another Amtrak in Maricopa 
County.
    So this step, where you said: We are not going to look to 
Amtrak to do the planning of future sites and what it is going 
to look like, but it is going to be the Federal Government, the 
FRA Administrator, and the State, and its stakeholders, to come 
together and begin planning. It is going to be incremental.
    But I will tell you what: It may be a dedicated line, and 
that dedicated line is going to be a string of pearls, You 
basically have allowed them to take that first step to say: You 
guys begin working towards the future.
    I am just going to----
    Mr. Olver. Would you yield?
    Mr. Pastor. I will yield, yes, as long as you want.
    Mr. Olver. I just want to know: Mr. Boardman, have you made 
a commitment to do the Tucson-through-Phoenix route?
    Mr. Boardman. No, no, no.
    Mr. Olver. Among the first group that you have--you do not 
have to answer that.
    Mr. Pastor. No, mostly Mark did. No, they have not. But 
what I have learned from having this meeting is that, for the 
first time, you have the ability of the Federal Government to 
meet with the State, and talk about a relationship to deal with 
rail. That has never happened before.
    You do with all other modes of transportation, and now is 
the first time that we have taken the step to say: The state 
has the ability to plan with the FRA Administrator to develop a 
plan that affects the State, but connects to this National 
railroad system.
    By taking that step, you now have states, and you will have 
states coming up and saying: Hey, we can connect. A plus would 
be that we will connect to Amtrak, or we can build this line, 
but 50-50, whatever the match is.
    I think that step you took is a major step because now you 
have the states and the railroad administrators working 
together.
    But it is interesting. I was looking at the energy 
consumption per passenger mile. Domestic airlines: about 3300 
Btus; Intra-city buses: 3500 Btus; Amtrak: 2100 Btus; autos: 
3500 Btus.
    As you develop, the new rail, along with the electric 
locomotives, it will become more efficient. Not only would you 
connect the nation it will be more energy efficient, I think 
that is going to be another plus in this whole system.
    The more I learned about the system the more impressed I 
was that this is the first time that we have developed this 
model, where we allow the FRA Administrator an increased role--
before they had to go to Amtrak, and Amtrak had to make those 
decisions where the lines would go.
    Now, it is between the FRA Administrator and the State to 
determine this. I think it was a great step that you took, and 
I want to congratulate you and recognize you for doing it.
    Do you want to comment on the energy efficiency while I 
have the time?
    Mr. Kummant. Let me say: I think a critical framing for 
transportation overall is, first of all, all the dialogue needs 
to be on a multi-modal model. What are the trade-offs between 
highway, rail and air? How do those align?
    Second is overall framing. It is difficult to do, but it is 
so necessary today. We are in an infrastructure crisis. We are 
in a transportation crisis. Infrastructure, mobility, 
environment and energy are all linked. It is all one package 
today and that is something we, collectively as a nation, 
really need to come to grips with and think through.
    Finally, I look at our air-rail-share numbers, which we 
track on the corridor. For example, New York to DC, in the 
fourth quarter of 2007, we had 61% of that travel share, if you 
put air and rail together.
    Even Boston to New York, where we are not quite as 
competitive, in the fourth quarter, we had 47% of that share. 
To steal Joe's thunder, we need to look at electrifying from DC 
to Richmond, then Richmond to Charlotte. Then we need to look 
at St. Louis-Chicago; we need to look at Las Vegas-L.A. There 
are opportunities out there, and there is a lot that we can do 
at 100 mph. It does not need to be 200 mph plus.
    You asked Mr. Boardman about the commitment between Phoenix 
and Tucson. I can use his support, but I need your commitment. 
[Laughter]
    Mr. Olver. Okay. Mr. Berry.
    Mr. Berry. Mr. Chairman, if we are giving away railroads, I 
want to sign up for mine.
    Mr. Olver. What is Little Rock near to?
    Mr. Berry. I do not know, but we will find something.
    Mr. Pastor. They gave a bridge at Thunder River.
    Mr. Berry. We do have Amtrak corridors in the First 
Congressional District of Arkansas. We are thankful for it, and 
we are glad we have it.
    I have so psyched myself with the remarks of the 
distinguished gentleman from Arizona, we do need to work 
together. If we do not, we are going to pay a big price in this 
country, in the years to come, for not taking care of our 
infrastructure. We cannot be a successful Nation with our 
infrastructure falling apart. We all know that. That is one of 
the reasons we are on this Committee. Thank you.
    Mr. Olver. Mr. Wolf. I think Mr. Wolf probably has a good 
Maglev project for you guys.
    Mr. Wolf. I have no questions. I am filling in for Mr. 
Knollenberg. He is at the other Committee.
    Mr. Olver. You do not even want to talk about Dulles?
    Mr. Wolf. Well, we are hopeful that the Dulles project will 
go forward----
    [Laughter.]
    Mr. Olver. Depending on what funding comes with it.
    But I suppose it could conceivably fall into the idea of 
going from Washington to Dulles by an arrangement that was made 
with the Federal Transit Administration.
    Mr. Wolf. Well, it could be, although I think we have a 
pretty good proposal now, Mr. Chairman, to take it to 
Metrorail.
    Mr. Olver. If you can get it through Metro, okay.
    Mr. Wolf. Thank you.
    Mr. Olver. Well, look, I went on for a long time before. I 
would ask either of you who wishes to comment to that. We are 
sort of running down here and most of the questions that I had 
have been asked by someone else. but I would like to see what 
it is we need.
    What do we need to do to--first, do you think we really 
ought to make the commitment to get the passenger rail in these 
kinds of corridors that I have described as strings of pearls, 
and I only mentioned a few of them.
    What impact do you have in thinking about what happens to 
our idea of long-distance trains? What is in the back of your 
minds? What do we do with them?
    Mr. Boardman. Alex has some thoughts that I am sure he is 
going to share with you in a minute. I have asked him for two 
minutes. I know I have used up some time previously, but let me 
just answer.
    Your question was: What do we do? Where do we go?
    Let me say to you that it is not just the price of fuel. 
Six years ago when this whole reform process started, we had a 
barrel of oil at $27. We are now at $100. So we have some major 
changes that have occurred, I think, globally for us for the 
future.
    So where do you start? You start by reducing the cost with 
electrification to the extent that you can. You start by 
changing the way that you charge for the use, yourself and 
others. You base it on time, which is the biggest constraint 
that we really have.
    You begin to look at separating the freight from the 
passenger as much as you can. You cannot do it totally, but you 
should do it as much as you can. But have that common use 
because that is the only way you are going to be able to 
efficiently afford to make the changes that you are really 
looking for.
    You celebrate the successes, and we have had successes. 
Some of us talked about some of them this morning in terms of 
what has happened with their market share between New York and 
Washington, and between New York and Boston, and the 
reliability of it as well.
    You focus on the places that are going to be successful, 
and he also identified those a couple of minutes ago but I will 
not go back through them.
    And you do not believe that congestion is totally bad for 
the economy because it is a damn good measure for us that we 
are still doing well as an economy to have this kind of traffic 
out there. You do not want to disturb that as well. That is all 
I have.
    Mr. Olver. You mentioned the oil increase. I take it you 
were saying that the cost of oil, being what it is, is going to 
have an affect upon air travel and on highway travel?
    Mr. Boardman. It already is having an affect on foods in 
our stores.
    Mr. Olver. I am sure, of course.
    Mr. Boardman. It affects everything.
    Mr. Olver. Are you saying that, relatively, the cost of 
those are going to be less compared with the cost of rail if we 
do the rail correct?
    Mr. Boardman. I am not sure I have understood the point. 
But if we do rail correctly, long term, how do we reduce the 
energy use is electrical----
    Mr. Olver. Okay, that is what I was trying to get at.
    Mr. Boardman. Maybe it was maladroit in the way I was 
trying to get to that point.
    My relative position, in essence, over time, with the cost 
of oil, the cost of road travel and air travel is going to 
continue to go up and it will be lesser because you are not 
expecting to go through all of that oil usage.
    I think we have an obligation to do electrification where 
it makes the most sense and where it is going to be successful.
    Mr. Olver. Yes.
    Mr. Boardman. I think we ought to fund the corridors on the 
Northeast Corridor.
    Mr. Olver. Yes.
    Mr. Boardman. And I do think that we need to get to a high-
speed rail in those places where we really mean to do 
improvements in the 90 to 120 average.
    Otherwise, if you are much less than that, if you are back 
on rails that are mixed with freight, and on rails that are at 
a maximum grade rating of 79 mph, you are going to be having 
average speeds which are less than what you can do on an 
interstate system.
    I have already taken too much time.
    Mr. Olver. That is quite all right.
    Mr. Boardman. It seems to me it is about national political 
lift. So we can show people some real trains and some real 
quarters out there. Again, at the 100 to 110 mph range.
    For example, St. Louis-Chicago, there is a fairly sparely 
used UP line that is in good shape where we can go 110 mph. And 
with maybe less than $100 million of infrastructure 
improvement, there is some signaling, some crossings. If we got 
a wonderful European train as a demonstration, it would sell 
out, it would sell out.
    And I think there is an opportunity to take Detroit to 
Chicago. We own and operate 96 miles there where we can go 110 
mph. That would be more money. It is very congested from 
Indiana into Chicago. But, let us say for less than $1 billion, 
you can have 100 mph travel between Detroit and Chicago.
    You look out west, in Vegas-L.A. there are opportunities. 
So if we went out and targeted individual corridors, and just 
showed people what could truly be done, you could over time 
develop the political lift to then say: Okay, let us really 
grade separate and let us develop the 150-200 mph trains.
    But I think there is an intermediate step that can really 
gain dividends.
    Mr. Olver. Okay, thank you very much.
    Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman. I wanted to ask you one 
question, and it is one that I have strong support on.
    From the years when I was chairman of this committee. The 
one question that I have wanted to ask you, though: I was 
taking rail. I take the Metroliner up to Philadelphia where I 
am originally from. My family has lived there, and up to New 
York City.
    It went through my old neighborhood the other day. I was 
looking out and the filth, the garbage on the sides of the 
track. Has there ever been a program, certainly on the 
Northeast Corridor, whereby there would be a time when you can 
clean up some of the garbage, and the cans, and the paper, and 
all the filth along there? Is there any program to look at 
that?
    Mr. Kummant. We actually work at that, probably every day. 
It is a significant issue. It is all about money. It is all 
about manpower.
    We usually have to divert maintenance-of-way people who are 
laying new rail or ties to do that. But we do have to do that, 
and various areas are better or worse than others. It is just 
something that you have to keep up with.
    Mr. Wolf. How do you compare it today versus say the way it 
was ten years ago?
    Mr. Kummant. I would have to ask my colleagues on that. I 
think we have actually made progress, I think people would say.
    We have worked on that very hard. If I may say so, I cannot 
resist but that happens to be a work rules issue as well. If we 
could out-source that, it could be done.
    Mr. Wolf. Why must you out-source that?
    Mr. Kummant. Because, basically, we end up in long 
conversations with our unions on whose work it is; and how to 
get that done. It is one of those typical friction points that 
we have.
    Mr. Wolf. Okay. Again, I appreciate the job that Amtrak 
does, but I just think that to clean-up some of those areas 
would make a tremendous difference. When you ride in a train in 
Europe and you look out, you do not really see the scene as you 
do up in our region.
    Mr. Kummant. That is right. There is, of course, a 
different legacy there. We do have a freight legacy, and an 
entirely different kind of environment that those trains are 
going through. Okay, Penn Coach Yard Cleanup.
    There have been significant individual clean-up efforts, 
but it is a problem and it is something that we keep working.
    Mr. Olver. Okay.
    Mr. Kummant. Thank you, Mr. Chairman.
    Mr. Olver. Ms. Kaptur.
    Ms. Kaptur. Hi, Mr. Chairman. I apologize for not being 
here earlier. We had a concurrent Defense subcommittee, a 
meeting on defensive missile capability. Now, we are into 
offensive transportation capabilities, so it is good to be here 
this morning.
    Welcome, gentlemen. I will try to be brief. I am from the 
northern part of Ohio, and represent the longest coastal 
district in Ohio. Amtrak is very important to us. Our private 
railroads are very important to us.
    Right now, freight is trumping passenger service, and 
passenger service has really gotten horrendous. Our passenger-
rail service is severely degraded. The options for rail travel 
across our region used to be pretty significant even going to 
Chicago.
    But if I want to take a train today from Washington back to 
my home town of Toledo, there are just two available options. 
The earliest, getting to Toledo at 4:56 a.m. tomorrow morning. 
I have done that one. Otherwise, I would need to travel through 
New York City, which is a lengthy diversion.
    So my question, which I do not expect you to answer, is: 
How much worse can it get? And how can we treat passenger rail 
more robustly in the same way as we have special assistance for 
our airlines and airline ticket fares, which we helped to 
invest in the system?
    If one looks at vehicular transportation and the gas tax, 
for example, we do not have revenues sources going into 
passenger rail at the same level, so I am interested in your 
thoughts about how do we make the funding system more robust?
    Also, let me just share a thought. I keep looking at the 
whole system, whereas our dear Chairman worries about the east 
coast, I have to selfishly worry about our corridor by the 
Great Lakes. And I always hear Detroit-Chicago, Detroit-
Chicago. What about Pittsburgh-Cleveland-Toledo-Chicago?
    And involving the Governors of Pennsylvania, Mr. Rendell is 
very interested in passenger rail; the Governor of Ohio, who is 
one of our former colleagues here, Mr. Strickland; the Governor 
of Indiana and the Governor of Illinois, who was also one of 
our former colleagues here.
    My thought is: I represent the Turnpike. We send cars down 
the Turnpike with tolls. What if we were to use that easement 
because we have all these conflicts with freight right now? So, 
even if you used existing track, you cannot move passenger 
trains. What if we were to get those governors together, and 
our port authorities together, and look at a blended system for 
some type of high-speed passenger transit across our region, 
using the respective state-bonding authorities along with what 
you already do?
    I keep looking at our Turnpike and thinking: My gosh, I 
represent Cedar Point. We have got these mono-rails and every 
other ride that goes up in the air over there. Why cannot we 
just make it horizontal and take it from Pittsburgh to Chicago 
using some of those existing right-of-ways?
    But that is not the way the studies have gone. The studies 
are looking at fixed bed, and, you know, the traditional way of 
thinking. But what if you were to look at segments? And get the 
respective players, look at revenue sources from that, and try 
to get something that really works rather than having a system 
that is cobbled together?
    And, frankly, with Canadian rail being right over my 
district in Canada, are there any across-lake or around-lake 
systems that we could conceive of?
    If you are ever interested in having that discussion with 
public officials from our region, or our port authorities from 
that region, look at our combined bonding authority. I think it 
is a discussion that we ought to have because the current 
system just is absolutely not working for the convenience of 
passengers. It keeps bumping up against rail.
    I extend the hand of friendship, and would love to have 
that type of discussion in our region, and would work with you. 
I cannot guarantee the governors' time but I think we could get 
the governors from the region and take a look at this issue of 
a high-speed rail corridor.
    Mr. Boardman.
    Mr. Boardman. Do you want the answers?
    Ms. Kaptur. Yes, but I want to ask my second question and 
then I will listen to the answers.
    For the FRA, we need help in making these private carriers 
responsible. Some of our worst railroad bridges, literally, I 
can take you to my district and chunks are falling off of these 
bridges onto the streets where kids walk under these trestles 
to get to school. CSX is one of the worst violators. I hope 
there is somebody from their organization in the room today 
because I want you to hear me say that on the record. They 
should be fixing up their property. How can we work with you to 
get these companies to do maintenance, especially when they are 
making huge money, you know, their profits annually? How do we 
get them to be community responsible? How can you help me do 
that in my region? I will take you to specific places in my 
district that are terrible and need to be repaired.
    Those are my two questions.
    Thank you, Mr. Chairman.
    Mr. Olver. Thank you.
    Mr. Kummant. I will just take two minutes, Joe.
    Mr. Boardman. You have got it.
    Mr. Kummant. First, let me say the areas there are dear to 
my heart. I grew up in Amherst and sailed on Lake Erie many 
years. I worked for the original Sohio before the BP America 
and I still know a lot of people of that refinery, so I know 
that area well.
    My father also lives in Pittsburgh, and just getting in to 
D.C., and when I send him back, he gets to Pittsburgh at like I 
think it is 11:30, or 11:45 p.m. It is a difficult route to 
serve western Pennsylvania and Ohio.
    Number 1, I hear you. Number 2, we are in conversations 
with 36 different states. I think we are really trying to move 
the ball in terms of our ability to pivot. We have been saying 
for a year the state DOTs are our future, so we would welcome 
that discussion.
    Thirdly, if anybody----
    Ms. Kaptur. May I just interject, Jolene Molitoris, the 
former FRA Commissioner, is the chair of our Rail Commission in 
Ohio. We have special assets in place that were not there 
before.
    Mr. Kummant. I am on the Visiting Committee of the Case 
School of Engineering, where we are talking about all these 
things. How can we, in Ohio, work on infrastructure, on energy, 
on transportation from the point of view of the Engineering 
School at Case? I am very much with you on those.
    Ms. Kaptur. What a gift. Maybe this is why we are here 
today.
    Mr. Kummant. Finally, I would say if you all were to come 
up with a dedicated funding source, we would say wonderful. I 
think that is one of the issues that turns us into such a 
political football--because of the annual kind of appropriation 
cycle that I think creates such political tension.
    If there were at least a partial dedicated funding source 
for a baseline, I think that might defuse some of the political 
intensity around us because we are such a large discretionary 
spending piece.
    Ms. Kaptur. Mr. Kummant, could you suggest for the record, 
or privately, knowing the system as well as you do, what would 
be the likeliest options for that?
    Mr. Kummant. Well, there again, unfortunately here I will 
claim to be the private sector industrial guy. I am not a 
budget expert. I am probably not that good.
    We can certainly chat with your staff about that, but I 
would suspect your committee probably has more solutions on 
that front than we do, but we can certainly proffer some 
thoughts.
    Ms. Kaptur. Thank you.
    Mr. Olver. Joe, I think your penciled note was great but I 
have to go.
    Mr. Boardman. Well, we are well over. But let me just say 
this: We will have our staff reach out to your staff and 
identify the difficulties that you are talking about and have a 
discussion with you.
    Ms. Kaptur. Thank you very much.
    Thank you, Mr. Chairman and members.
    Mr. Olver. Thank you. Let me say that I am going to offer 
one question to you in writing about the 100,000 rail bridges, 
related to those all over the country. It clearly is a problem, 
and there will be some questions that staff is going to try to 
put in a little bit more coherent manner from my earlier 
comments.
    Otherwise, thank you very very much for being with us 
today. We will adjourn the hearing.
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    








                           W I T N E S S E S

                              ----------                              
                                                                   Page
Anderson, A. P...................................................   575
Anthes, R. A.....................................................   729
Anthony, A. S....................................................   708
Bernstine, Nancy.................................................   681
Boardman, Joseph.................................................     1
Brubaker, Paul...................................................   569
Capon, R. B......................................................   694
Corzine, J. S....................................................   724
Dexter, Jennifer.................................................   669
Douglas, Jim.....................................................   724
Glynn, A. C......................................................   702
Johnson, Collister, Jr...........................................   541
Kummant, Alexander...............................................     1
Lofye, Andrea....................................................   660
Millar, W. W.....................................................   655
Monks, Janice....................................................   651
Narvaiz, Susan...................................................   716
Paterson, D. A...................................................   724
Ramirez, S. N., Jr...............................................   689
Raymond, C. G....................................................   674
Sees, M. R.......................................................   675
Simpson, T. D....................................................   713
Sperling, Andrew.................................................   685
Zaterman, Sunia..................................................   663


                               I N D E X

                              ----------                              

    Federal Railroad Administration and National Railroad Passenger 
                          Corporation (Amtrak)

                                                                   Page
Accident Rates...................................................   164
CAB Technology Integration Activities............................   105
Cause of Fatalities..............................................   135
Civil Penalties Initially Assessed in FY07 to Freight Railroads..   394
Close Call Confidential Reporting System (C3RS)..................    47
Contract Support.................................................   159
Defect Summaries.................................................   167
Derailments....................................................111, 127
Efficiency Incentive Grants Unobligated Balances.................   118
Fines Initially Assessed to Freight Railroads....................   390
FRA Railroad Code................................................   504
Freight Trains Blocking Public Highways..........................   538
FTE..............................................................   160
Grade Crossings..................................................   136
Hazardous Materials and Chlorine/Anhydrous Ammonia...............   120
High-Speed Passenger Trucks......................................   109
High-Speed Rail..................................................    52
Inspection Data..................................................   153
Level Boarding...................................................   107
NTSB Safety Recommendations......................................   145
Offsetting Collections...........................................    86
Opening Statement by Alexander Kummant, President and CEO of 
  Amtrak.........................................................     9
Opening Statement by Chairman John W. Olver......................     1
Opening Statement by Joseph Boardman, FRA Administrator..........     3
Opening Statement by Ranking Member Joe Knollenberg..............     2
PA Station Redevelopment.........................................   119
Passenger Equipment Crashworthiness Program......................   114
Questions for the Record from Chairman David R. Obey.............   538
Questions for the Record from Subcommittee Chairman John W. Olver    47
R&D Reimbursable Program.........................................   108
Railroad Fines...................................................   398
Railroad Rehabilitation & Improvement Financing (RRIF)...........   116
Railroad Research and Development Grantees.......................    93
Railroad Warnings................................................   166
Rulemaking: Final Regulations...................................48, 122
State of Good Repair.............................................   117
Status of High-Speed Rail Corridors..............................    58
Status of Railroad Bridges.......................................    88
Written Statement by Alexander Kummant, President and CEO of 
  Amtrak.........................................................    12
Written Statement by Joseph Boardman, FRA Administrator..........     6

             Saint Lawrence Seaway Development Corporation

Written Statement by Collister Johnson, Jr., Administrator Saint 
  Lawrence Seaway................................................   541
Development Corporation:
Asset Renewal Program: Cost Estimates............................   564
Asset Renewal Program: Overall Cost..............................   559
Asset Renewal Program: Schedule..................................   560
Asset Renewal Program: Seaway International Bridge...............   566
Asset Renewal Program: St. Lawrence Seaway Management Corporation   565
Asset Renewal Program: Staffing..................................   565
Ballast Water....................................................   556
Capacity.........................................................   552
Delays...........................................................   555
Emergency Reserve Account........................................   545
Full-Time Employees..............................................   545
Harbor Maintenance Trust Fund....................................   548
Offsetting Collections/Non-Federal Revenue.......................   546
Questions for the Record from Chairman John W. Olver.............   545
Seaway Statistics................................................   555
Seaway Traffic...................................................   550
Trade Development................................................   548

           Research and Innovative Technology Administration

Written Statement by Paul Brubaker, Administrator, Research and 
  Innovative Technology Administration...........................   569
Questions for the Record from Chairman John W. Olver.............   570
Research Planning, Investment and Control Process (RPIC).........   570
Vehicle Infrastructure and Integration (VII).....................   571
Nationwide Differential Global Positioning System (NDGPS)........   572
Airline Data Improvements........................................   572
Transportation Information for Decision Makers...................   573

                      Federal Maritime Commission

Written Statement by A. Paul Anderson, Commissioner, Federal 
  Maritime Commission............................................   575
Area Representatives.............................................   593
Awards...........................................................   607
Employee Retirements.............................................   589
Equipment........................................................   621
Full Time Employees..............................................   586
Funding Level....................................................   584
Other Services (25.0) of Salaries and Expenses...................   590
Questions for the Record from Chairman John W. Olver.............   584
Travel...........................................................   597

                  National Transportation Safety Board

Questions for the Record from Chairman John W. Olver.............   623
10-Year Funding History..........................................   623
Budget Request...................................................   623
Emergency Fund...................................................   649
Fatalities.......................................................   648
Most Wanted List.................................................   643
New Maritime Activities..........................................   649
NTSB Training Center.............................................   640
Recommendations..................................................   647
Staffing.........................................................   624

                           Outside Witnesses

Written Statement by the American Association of Service 
  Coordinators (AASC)............................................   651
Written Statement by William W. Millar, President, American 
  Public Transportation Association..............................   655
Written Statement by Andrea Lofye, Vice President, Capital 
  Metropolitan Transportation Authority, Austin, Texas...........   660
Written Statement by Sunia Zaterman, Executive Director, Council 
  on Large Public Housing Authorities............................   663
Written Statement from the Easter Seals Project Action and The 
  National Center on Senior Transportation.......................   669
Written Statement by Charles G. Raymond, Chairman, President and 
  CEO, Horizon Lines.............................................   674
Written Statement by Milton R. Sees, Secretary, Illinois 
  Department of Transportation...................................   675
Written Statement by Nancy Bernstine, Executive Director, 
  National AIDS Housing Coalition................................   681
Written Statement by Andrew Sperling, Director of Legislative 
  Advocacy, National Alliance on Mental Illness..................   685
Written Statement by Saul N. Ramirez Jr., Executive Director, 
  National Association of Housing and Redevelopment Officials....   689
Written Statement by Ross B. Capon, Executive Director, National 
  Association of Railroad Passengers.............................   694
Written Statement by the National Congress of American Indians...   698
Written Statement by Astrid C. Glynn, Commissioner, New York 
  State Department of Transportation.............................   702
Written Statement by Amy S. Anthony, President, Preservation of 
  Affordable Housing, Inc........................................   708
Written Statement by Thomas D. Simpson, Executive Director--
  Washington, DC, Railway Supply Institute, Inc..................   713
Written Statement by Susan Narvaiz, Mayor, City of San Marcos, 
  Texas........................................................716, 719
Written Statement by the Coalition of Northeastern Governors...724, 726
Written Statement by Richard A. Anthes, President, University 
  Corporation for Atmospheric Research...........................   729

                                  <all>
</pre></body></html>
